                        U.S. COMMODITY FUTURES TRADING COMMISSION
                                          Three Lafayette Centre
                               1155 21st Street, NW, Washington, DC 20581
                                       Telephone: (202) 418-5110
                                        Facsimile: (202) 418-5522


   Office of the
Inspector General
                                          MEMORANDUM


     TO:             Gary Gensler
                     Chainman                   .0
     FROM:           A. Roy Lavik   0. (2
                     Inspector General
                                                d-
     DATE:           November 10, 20 II

     SUBJECT:        Inspector General's Assessment of The Most Serious Management
                     Challenges Facing the Commodity Futures Trading Commission (CFTC)

     Introduction

    The Rep011s Consolidation Act of 2000 (RCA) authorizes the CFTC to provide financial and
    performance infonnation in a more meaningful and useful format for Congress, the President,
    and the public. The RCA requires the Inspector General to summarize the "most serious"
    management and performance challenges facing the Agency and to assess the Agency's progress
    in addressing those challenges. This memorandum fulfills our duties under the RCA.

    In order to identify and describe the most serious management challenges, as well as the
    Agency's progress in addressing them, we have relied on data contained in the CFTC financial
    statement audit and Annual Financial Report, representations by agency management, as well as
    our knowledge of industry trends and CFTC operations. Since Congress left the determination
    and threshold of what constitutes a most serious challenge to the discretion of the Inspector
    General, we applied the following definition in preparing this statement:

    Serious management challenges are mission critical areas or programs that have the potential for
    a perennial weakness or vulnerability that, without substantial management attention, would
    seriously impact Agency operations or strategic goals.

    This memorandum summarizes the results of the CFTC's current financial statement audit,
    describes the Agency's progress on last year's management challenges, and finally discusses the
    most serious management challenges that we have identified:

        •   Implementation ofthe Dodd-Frank Act

        •   Human Resource Expansion and Management
   o   Efficient Deployment of Information Technology Resources

   o   Expanding Delivery of Customer Protection Resources and Consumer Education


CFTC Financial Statement Audit Results

In accordance with the Accountability ofTax Dollars Act, CFTC, along with numerous other
federal entities, is required to submit to an annual independent financial statement audit by the
Inspector General, or by an independent external auditor as determined by the Inspector General.
The results of the Fiscal Year 2011 financial statement audit will be discussed in the Annual
Financial Report, and the fmancial statement audit is expected to result in an unqualified audit
opinion.

CFTC's Progress on Last Year's Challenges

Last year, we identified two of the most serious management challenges:

   o   Implementation of the Dodd-Frank Act; and,

   o   Human Resource Expansion and Management.

CFTC made progress on both challenges, but due to ongoing implementation of the Dodd-Frank
Act these challenges remain significant. Following is our statement made last year followed by
an update.

DIG Statement 2010

Implementation of the Dodd-Frank Act

On July 21,2010, President Obama signed the Dodd-Frank Wall Street Reform and Consumer
Protection Act ("Dodd-Frank Act" or "Dodd-Frank"), Pub. L. 111-203, 124 Stat. 1376 (2010).
Title VII of the Dodd-Frank Act amended the Commodity Exchange Act to establish a
comprehensive new regulatory framework for swaps and security-based swaps. In order to
implement the Dodd-Frank Act, the Commission has identified 30 areas where rules will be
necessary. Many of these rules will require or result in cooperative efforts with the Securities
and Exchange Commission or other federal agencies. In addition, the Dodd-Frank Act calls for
numerous studies and other undertakings by the Commission, some also with cooperation from
other agencies. The Commission recognizes that many of the new rules required under Dodd-
Frank must be adopted within 180 days. The magnitude ofthis undertaking under a compressed
timeline during FY 2011 presents a serious management challenge.




                                                2
Update

During the past year CFTC staff and Commissioners have met more than 1,000 times with
members of the public to discuss rules proposed under Dodd-Frank, and have conducted 14
public roundtables. Additionally, the Commission has received more than 25,000 comment
letters pertaining to Dodd-Frank. The Commission has held 20 public meetings to vote on
various Dodd-Frank matters, and more meetings are scheduled this year and into next year. The
Commission has issued nearly 60 proposed rules, notices, or other requests seeking public
comment, as well as 22 final rules, interim final rules, and exemptions, but implementation is not
yet complete.

In order to address the new regulatory mandates stated in the Dodd-Frank Act, the Agency has
reorganized into 4 Divisions and 7 operating offices. Operational challenges associated with
Dodd-Frank implementation remain, in our view, a serious management challenge.

DIG Statement 2010

Human Resource Expansion and Management

The Commission's new responsibilities under Dodd-Frank significantly increased its workload.
By the end of Fiscal Year 2010, the Commission had on-board 687 employees, which is 58
below the 745 FTE CFTC requested to carry out our pre-Dodd-Frank authorities. To fully
implement the Dodd-Frank reforms, the Commission states it requires an additional 398 FTEs.
Rather than 398, the President's FY 2011 Budget provided for hiring only 238 additional
positions. CFTC is requesting an additional 160 FTEs for FY 2012 to staff areas of critical need.
However, the current budgetary limits imposed by the government-wide continuing resolution
will significantly impact the CFTC's ability to hire any additional employees during FY2011.
Should Congress lift the continuing resolution, the CFTC will need to dramatically expand its
Human Resource function to meet and manage the CFTC's need for additional staff and training
to address the requirements of Dodd-Frank Act. We view the possibility ofa rapid and dramatic
increase (35% staff increase in FYl1) in new employees to address new rules over newly
regulated markets, such as swaps, a significant management challenge during Fiscal Year 2011.

Update

During Fiscal Year 2011 the agency secured additional appropriations and staff. The CFTC's
2011 spending plan accommodated 717 FTEs. It is our understanding, based on the President's
Budget Submission, that CFTC may increase to 983 staff years - an increase of over 200 staff
years - for FY 2012 and, accordingly, we restate Human Resource Expansion and Management
as a serious and continuing management challenge in the coming fiscal year.




                                                3
Most Serious Management Challenges for the coming year

Two new issues that are likely to challenge CFTC management in the coming year are:

Efficient Deployment of Information Technology Resources

According to current data, over eighty percent of futures and options trading on the Chicago
Mercantile Exchange are transacted electronically. We believe that expanded jurisdiction over
swaps will increase the volume of electronic trading the Agency will monitor. As a result of this
structural shift in futures trading (from floor based open outcry to electronic platforms), the
CFTC has requested from Congress and received additional resources to facilitate electronic
surveillance.

Congress in FY 2011 authorized a minimum of $37.2 million for "the highest priority
information technology activities of the Commission." In response to this congressional
directive as well as the Agency's added responsibility over the swaps marketplace, the Agency in
FY 2011 allocated over $42 million dollars towards technological modernization (21 % ofFY
2011 appropriations). Approximately two thirds of this budgeted commitment was targeted
towards automated data processing systems to modernize the Agency's systems for capturing
and processing market related data. We identify efficient deployment of information technology
resources as a serious management challenge for the coming year.

Expanding Delivery of Customer Protection Resources and Consumer Education

Section of 748(g) of the Dodd-Frank Act added section 23(g) to the Commodity Exchange Act to
establish within the Treasury of the United States a revolving fund that will be available to the
Agency for the payment of whistleblower awards and education initiatives. The new Customer
Protection Fund may be funded -- up to $100 million -- by civil monetary penalties collected
through the Commission's enforcement program that are not otherwise distributed to victims. At
the end of FY2011 the Customer Protection Fund totaled over $23 million dollars. On October
24, 2011, an initial Office of the Inspector General financial statement audit of the Customer
Protection Fund resulted in an unqualified opinion on the financial statements, which is
encouraging.

Increasingly, the Customer Protection Fund's resources and commitments will demand
significant management attention. This new commitment to whistleblower protection and
education will challenge the Agency to effectively manage decisions regarding additions to and
awards from the CPF, develop its organizational structure, and prudently manage significant
additional resources. We are encouraged that the agency will soon select management for the
startup Customer Protection Fund and Consumer Education initiatives, but nevertheless we count
the creation of this new program among the most serious management challenges facing the
Commission in the coming year.




                                                4
